                Improvements Are Needed in the Exempt
                Organizations Compliance Unit to Better
              Support the Exempt Organizations Function’s
                         Overall Strategic Goals

                                     May 2005
                       Reference Number: 2005-10-078




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           May 27, 2005



      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION


      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - Improvements Are Needed in the Exempt
                             Organizations Compliance Unit to Better Support the Exempt
                             Organizations Function’s Overall Strategic Goals
                             (Audit # 200410036)


      This report presents the results of our review of the adequacy of the Exempt
      Organizations (EO) function’s efforts to implement the Exempt Organizations
      Compliance Unit (EOCU) and whether the EO function had controls to effectively
      manage EOCU projects. Public concerns about exempt organizations’ operations and
      compliance have brought increased attention from the press and oversight bodies
      regarding the accuracy of EO function customer account data and the declining level of
      enforcement activities across the Internal Revenue Service. In response to the
      increased public scrutiny, the EO function established the EOCU in January 2004. The
      EOCU is designed to address noncompliance by using correspondence and telephone
      contacts to correct return information.
      In summary, the initial EOCU projects were conducted in accordance with
      management’s goals of increasing contacts in the exempt organizations community and
      improving the accuracy of tax return information. However, the initial projects were not
      based on data analysis of noncompliance issues and did not always relate to the most
      critical EO function initiatives. Improvements are needed to ensure management
      identifies and prioritizes future EOCU projects that are focused on the EO function’s
      highest priority areas. EO function management planned to have EOCU projects
      identified by the Data Analysis Unit (DAU), which is designed to conduct data analysis
      to identify work projects with a high risk of compliance problems, but the DAU was not
      operational when the EOCU was initially established. In addition, the EOCU manager
      stated that another source of EOCU projects will be the various EO function compliance
                                                            2

and market segment projects. These projects may also provide a significant amount of
research on the noncompliance areas for the proposed EOCU projects.
EO function management should establish procedures that detail the documentation
and research needed to plan EOCU case work to enable projects to be completed
timely and efficiently. This guidance is necessary to ensure a consistent process is
followed by EO function personnel when planning EOCU case work. Additionally,
adequate project planning documentation will help EO function management prioritize
the projects that best support the EO function’s strategic goals and not overlook good
project ideas because of insufficient documentation.
Further, improvements are needed to more effectively track case results. Specifically,
additional codes should be added to the inventory system to better track project results
when EOCU cases are closed. We identified 249 cases closed as of
September 16, 2004, in which EOCU employees selected the disposal code “Other” to
indicate the final case outcome. In the 242 cases1 for which sufficient information was
captured on the database, we determined many cases had similar results that could be
better tracked by EO function management through additional disposal codes. During
our fieldwork, we informed EO function management of the need for additional codes to
better track EOCU case results. As a result, EO function management has taken action
to create additional codes and increase EOCU employees’ awareness in this area.
Therefore, we are making no further recommendations to address this issue.
In addition, EO function management should establish specific timeliness standards for
EOCU case processing to ensure cases are completed timely. We determined EOCU
management had started developing a quality measurement system for EOCU projects
before we started our audit. However, our review of the draft guidelines showed that
the timeliness standards are subjective and general in nature. Specifically, there is no
guidance indicating what is considered a reasonable or appropriate time period in which
to complete EOCU case work.
We recommended the Director, EO, develop a process to identify and prioritize future
EOCU case work based primarily on data analysis, develop procedures that specify the
documentation required for future EOCU projects, and develop specific timeliness
standards for processing certain EOCU case work.
Management’s Response: The Commissioner, Tax Exempt and Government Entities
Division, agreed with our recommendations and plans to take corrective action. The
Director, EO Examination, will ensure the development of a structured process to
identify and prioritize future EOCU case work; ensure the development of detailed
guidance that specifies the documentation necessary for planning, developing and
obtaining approval for future EOCU projects; and develop timeliness standards for
applicable EOCU cases. Management’s complete response to the draft report is
included as Appendix V.



1
    In seven cases, there was insufficient information on the database with which to determine the case disposition.
                                           3

Copies of this report are also being sent to the Internal Revenue Service managers
affected by the report recommendations. Please contact me at (202) 622-6510 if you
have questions or Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters
Operations and Exempt Organizations Programs), at 202-622-8500.
     Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
          Support the Exempt Organizations Function’s Overall Strategic Goals




                                                  Table of Contents


Background ............................................................................................... Page 1
The Exempt Organizations Function Could Better Plan and Prioritize
Projects ..................................................................................................... Page 2
         Recommendations 1 and 2: .............................................................Page 6

Additional Disposal Codes and Timeliness Standards Are Needed to
Evaluate Exempt Organizations Compliance Unit Project Results............ Page 6
         Recommendation 3: .........................................................................Page 9

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 10
Appendix II – Major Contributors to This Report ....................................... Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Outcome Measures............................................................ Page 14
Appendix V – Management’s Response to the Draft Report ..................... Page 15
    Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
         Support the Exempt Organizations Function’s Overall Strategic Goals

                                 In recent years, there has been a significant growth in the
Background
                                 number of entities recognized as exempt from Federal
                                 income tax under the Internal Revenue Code (I.R.C.).
                                 In Fiscal Year (FY) 2003, there were 1.6 million exempt
                                 organizations, compared to 1.1 million in FY 1993.
                                 However, there has been a significant reduction in resources
                                 dedicated by the Tax Exempt and Government Entities
                                 (TE/GE) Division to examinations of these entities, resulting
                                 in a sharp decline in examination coverage. Examinations
                                 fell from approximately 12,300 in FY 1993 to less than
                                 5,800 in FY 2003.
                                 The Exempt Organizations (EO) function of the TE/GE
                                 Division has responsibility for ensuring compliance with the
                                 I.R.C. sections and regulations that govern organizations
                                 exempt from Federal income tax. Public concerns about
                                 organizations’ operations and compliance have brought
                                 increased attention from the press and oversight bodies
                                 regarding the accuracy of EO function customer account
                                 data and the declining level of enforcement activities across
                                 the Internal Revenue Service (IRS). As a result, EO
                                 function management has continued to emphasize
                                 enforcement in FY 2005 to slow the growth of abuses in the
                                 tax exempt community and promote voluntary compliance.
                                 Additionally, the IRS Commissioner testified before the
                                 Congress that enforcement within the tax exempt
                                 community is a priority in FY 2005.
                                 In response to the increased public scrutiny, the EO function
                                 established an Exempt Organizations Compliance Unit
                                 (EOCU) in January 2004. The Unit is designed to address
                                 noncompliance by using correspondence and telephone
                                 contacts to correct return information. The EOCU’s goal is
                                 to contact a greater number of exempt organizations than
                                 would be possible through traditional examinations, thereby
                                 enabling EO Examinations function personnel to
                                 concentrate on the examinations work requiring face-to-face
                                 contacts.




                                                                                       Page 1
    Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
         Support the Exempt Organizations Function’s Overall Strategic Goals

                                 Since its inception, the EOCU has conducted compliance
                                 checks,1 educational mail-outs, and case building projects.2
                                 From January 2004 through early January 2005, the EOCU
                                 closed approximately 10,000 cases. Currently, the EOCU is
                                 approved for a staff of 14 technical employees and
                                 1 manager. In FY 2005, the EO function plans to hire an
                                 additional 20 employees to perform EOCU work.
                                 This review was performed in the EOCU located at the
                                 Ogden Campus3 in Ogden, Utah, during the period
                                 September through November 2004 in accordance with
                                 Government Auditing Standards. Detailed information on
                                 our audit objectives, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 The initial EOCU projects were conducted in accordance
The Exempt Organizations
                                 with management’s goals of increasing contacts in the
Function Could Better Plan and
                                 exempt organizations community and improving the
Prioritize Projects
                                 accuracy of tax return information. However, the initial
                                 projects were not based on data analysis of noncompliance
                                 issues and did not always relate to the most critical EO
                                 function initiatives. Improvements are needed to ensure
                                 management identifies and prioritizes future EOCU projects
                                 that are focused on the EO function’s highest priority areas.
                                 In addition, EO function management should establish
                                 procedures that detail the documentation and research
                                 needed to plan EOCU case work to enable projects to be
                                 completed timely and efficiently.




                                 1
                                   A compliance check is a contact with the customer that involves a
                                 review of filed information and tax returns of the entity to determine
                                 whether the entity is adhering to record keeping and information
                                 reporting requirements. A compliance check is not an examination, and
                                 the customer may legally choose not to participate in the compliance
                                 check.
                                 2
                                   Case building involves sending out letters at the request of an EO
                                 function employee to a small sample of taxpayers to obtain information
                                 for a possible compliance project.
                                 3
                                   The campuses are the data processing arm of the IRS. They process
                                 paper and electronic submissions, correct errors, and forward data to the
                                 Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                  Page 2
Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
     Support the Exempt Organizations Function’s Overall Strategic Goals

                             A structured process is needed to identify and prioritize
                             EOCU work projects that will best support the strategic
                             goals of the EO function
                             One of the EO function’s top priorities in FY 2005 is
                             building a stronger enforcement presence by increasing the
                             number of compliance contacts within the exempt
                             organizations community. We believe these contacts should
                             be in the high-priority, high-visibility noncompliance areas
                             so customers realize the EO function is increasing its
                             monitoring of the exempt organizations community.
                             However, EO function management has not established a
                             project development process to identify the highest priority
                             work for the EOCU based primarily on data analysis of
                             noncompliance trends. Instead, a list of project ideas was
                             developed in March 2003, during two meetings held in
                             Washington, D.C. For FYs 2004 and 2005, the projects
                             planned for the EOCU have primarily come from the ideas
                             developed at these meetings. While these ideas may have
                             had merit, without data analysis to determine the potential
                             size of the noncompliance problem, EO function
                             management did not always identify projects related to the
                             most critical EO function initiatives. For example, one
                             project initially planned for the EOCU related to the
                             compliance of kennel clubs. The Director, EO,
                             subsequently decided not to initiate an EOCU project in this
                             area and revised the FY 2005 workplan.
                             Some of the initial ideas were in high-priority areas and
                             served to increase the EO function’s enforcement presence.
                             For example, several excess compensation initiatives and an
                             insurance organization project have been conducted by the
                             EOCU. Both of these topics have been a priority within the
                             EO function.
                             EO function management agreed that the initial projects
                             performed in the EOCU were not based on data analysis of
                             high-risk areas of noncompliance. Less-technical projects
                             were initially performed due to the inexperience of the
                             EOCU staff members, who were new to the EO function. In
                             addition, EO function management planned to have EOCU
                             projects identified by the Data Analysis Unit (DAU), which
                             is designed to conduct data analysis to identify work
                             projects with a high risk of compliance problems. However,
                                                                                  Page 3
Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
     Support the Exempt Organizations Function’s Overall Strategic Goals

                             the DAU was not operational when the EOCU was initially
                             established. Finally, the EOCU manager stated that another
                             source of EOCU projects will be the various EO function
                             compliance and market segment projects. These projects
                             may also provide a significant amount of research on the
                             noncompliance areas for the proposed EOCU projects.
                             Although these two sources should provide a better basis for
                             EO function management to evaluate project proposals,
                             there is still a need to prioritize the EOCU work projects
                             that best support the EO function’s overall strategic goals.
                             This is especially important in light of EO function
                             management’s plans to increase the role of the EOCU as
                             part of the EO function’s enforcement program.
                             Specifically, EO function management recently submitted a
                             request for an increase in staffing in FY 2007 to allow the
                             Unit to support EO function critical initiatives and provide
                             broad-based coverage to the exempt organizations
                             community. Based on our review of this request, EO
                             function management plans to have the EOCU perform
                             single-issue audits that can be completed through written
                             correspondence instead of face-to-face contact by EO
                             Examinations function personnel.
                             EO function management should establish procedures
                             detailing the information necessary for planning EOCU
                             projects
                             At the time of our review, no formal guidance had been
                             prepared for planning and developing a project prior to
                             submitting it to the EOCU. This guidance is necessary to
                             ensure a consistent process is followed by EO function
                             personnel when planning EOCU case work. Additionally,
                             adequate project planning documentation will help EO
                             function management prioritize the projects that best
                             support the EO function’s strategic goals and not overlook
                             good project ideas because of insufficient documentation.
                             We believe the project documentation should contain
                             sufficient information about the extent of the noncompliance
                             problem and why it would be an appropriate use of EOCU
                             resources to conduct the project. It is also important to note
                             that EOCU personnel do not perform additional research on
                             the noncompliance issue once they start the project. The EO
                             function personnel submitting the project idea must provide

                                                                                    Page 4
Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
     Support the Exempt Organizations Function’s Overall Strategic Goals

                             a description of the noncompliance issue and why further
                             contact with customers is needed. If the project idea is
                             selected, the same personnel also prepare the various project
                             plans and instructions for the EOCU to carry out the project.
                             After the initial EOCU project ideas were identified, a
                             three-person team prioritized the projects and prepared
                             documentation for each project selected for implementation.
                             Based on our review of project documentation for three
                             selected projects4 and interviews with EOCU management,
                             we determined that a Procedure document, which provided
                             guidance for completing specific project tasks, was prepared
                             for the selected projects. In addition, for the compliance
                             check and educational mail-out projects, the following
                             additional documentation was prepared:
                                 •        Project Proposal, which outlined the project
                                          objectives, effect on customer service, potential
                                          project outcomes, staffing requirements, etc.
                                 •        Approach document, which provided specific
                                          information on the project population, case
                                          research steps, and an overview of steps for
                                          completing a case.
                                 •        Customer Account Services Briefing document,
                                          which provided guidance to TE/GE Division
                                          Customer Account Services function personnel
                                          in answering any questions received from
                                          taxpayers regarding EOCU projects.
                                 •        Just-In-Time Training, which outlined the
                                          background and tax laws necessary for EOCU
                                          employees to complete the project.
                             This documentation was also developed for the other initial
                             EOCU projects, according to an EO function manager. For
                             future projects, EO function management plans to have the
                             project originator prepare this documentation. However,
                             without specific guidance on what is required, EO function
                             personnel may not know what documentation to submit for

                             4
                              We selected the Fundraising Educational Mail-Out project, one of the
                             Foundation Code/Subsection Code Mismatch compliance check
                             projects, and the Zero Compensation Paid to Officers case building
                             project.
                                                                                            Page 5
    Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
         Support the Exempt Organizations Function’s Overall Strategic Goals

                                 future EOCU projects. As stated earlier, this may hamper
                                 EO function management’s ability to identify the highest
                                 priority projects that would be the best use of EOCU
                                 resources and would provide insufficient guidance for the
                                 EOCU to carry out the projects timely and efficiently.

                                 Recommendations

                                 The Director, EO, should:
                                 1. Develop a structured process that identifies and
                                    prioritizes future EOCU case work based primarily on
                                    data analysis to assist management in selecting the
                                    highest priority projects that are the best use of EOCU
                                    resources.
                                 Management’s Response: The Director, EO Examination,
                                 will develop a structured process to identify and prioritize
                                 future EOCU case work based primarily on data analysis.
                                 2. Prepare detailed guidance that specifies the
                                    documentation that should be completed for planning,
                                    developing, and obtaining approval for future EOCU
                                    projects and communicate it to applicable EO function
                                    personnel.
                                 Management’s Response: The Director, EO Examination,
                                 will prepare guidance that specifies the documentation that
                                 should be completed for planning, developing, and
                                 obtaining approval for future EOCU projects, and
                                 communicate it as appropriate within the EO function.
                                 Based on interviews with EO function management, we
Additional Disposal Codes and
                                 determined the EOCU has a process to assign and close
Timeliness Standards Are
                                 cases selected as part of EOCU projects. However,
Needed to Evaluate Exempt
                                 improvements are needed to more effectively track case
Organizations Compliance Unit
                                 results. Specifically, additional codes should be added to
Project Results
                                 the inventory system to better track project results when
                                 EOCU cases are closed. In addition, EO function
                                 management should establish specific timeliness standards
                                 for EOCU case processing to ensure cases are completed
                                 timely.




                                                                                        Page 6
Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
     Support the Exempt Organizations Function’s Overall Strategic Goals

                             Enhanced use of disposal codes on the EOCU database
                             would better track project results
                             Currently, EOCU management tracks all projects on a
                             stand-alone Microsoft Access® database. This database is
                             used to control the inventory of cases for each EOCU
                             project.
                             When a case is completed, EOCU personnel update the
                             EOCU database to reflect the case closing and the
                             applicable case results by selecting a disposal code.
                             We identified 249 cases closed as of September 16, 2004, in
                             which EOCU employees selected the disposal code “Other”
                             to indicate the final case outcome. In the 242 cases5 for
                             which sufficient information was captured on the database,
                             we determined many cases had similar results that could be
                             better tracked by EO function management through
                             additional disposal codes. For example, we determined
                             115 cases related to case building projects in which the
                             EOCU sent letters to taxpayers and then closed the cases
                             after the taxpayers responded. We also identified 46 cases
                             for which EOCU personnel performed research and then
                             closed the cases due to the low dollar amounts involved.
                             EO function management had not created specific codes on
                             the EOCU database to document these types of case
                             closings.
                             Additionally, we identified 11 of the 242 cases in which
                             EOCU employees used the “Other” disposal code when a
                             more descriptive disposal code was available. For example,
                             in nine cases, EOCU employees’ comments indicated that
                             the exempt organizations had complied with filing and/or
                             reporting requirements, resulting in no changes based upon
                             the case work. However, the employees should have
                             selected disposal code “Inquiry resolved – accepted
                             explanation” that more accurately and clearly identified the
                             outcomes of these cases. This disposal code is to be used
                             when a case results in no change to the return or to the
                             taxpayer’s account.
                             There is little oversight over the input of disposal codes to
                             the system. EOCU procedures instruct employees to update

                             5
                              In seven cases, there was insufficient information on the database with
                             which to determine the case disposition.
                                                                                             Page 7
Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
     Support the Exempt Organizations Function’s Overall Strategic Goals

                             the database with the appropriate disposal code upon
                             completion of the case work. However, EOCU
                             management reviews only one closed case per employee per
                             month due to the high volume of cases closed in the Unit.
                             The Lead Tax Examiner reviews one closed case per
                             employee per week. Due to the low number of case reviews
                             performed, concerns with the use of disposal codes may not
                             be readily identified by management during its quality
                             review process. EO function management stated they had
                             not previously identified this issue.
                             EOCU personnel prepare reports to document the results of
                             many of their projects, including the impact the projects had
                             on exempt organizations’ compliance. Sufficient and
                             accurate information about the disposition of cases is
                             needed if the EOCU is to effectively evaluate the results of
                             its projects.
                             During our fieldwork, we informed EO function
                             management of the need for additional disposal codes to
                             better track EOCU case results. As a result, EO function
                             management has taken action to create additional disposal
                             codes and increase EOCU employees’ awareness in this
                             area. Specifically, EOCU personnel performed an analysis
                             of all the cases closed using the “Other” disposal code as of
                             December 9, 2004, and changed the dispositions to newly
                             added, more descriptive codes or to existing codes that
                             better described the case dispositions. Based upon this
                             analysis, EO function management corrected 432 cases that
                             were closed using the “Other” disposal code. As a result,
                             we are making no further recommendations to address this
                             issue.
                             Specific timeliness standards are needed to measure
                             EOCU case work
                             We determined EOCU management had started developing
                             a quality measurement system for EOCU projects before we
                             started our audit. However, our review of the draft
                             guidelines showed that the timeliness standards are
                             subjective and general in nature. Specifically, there is no
                             guidance indicating what is considered a reasonable or
                             appropriate time period in which to complete EOCU case
                             work. For example, one standard is, “Was the compliance
                             check and/or examination started (or reassigned) within a
                                                                                    Page 8
Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
     Support the Exempt Organizations Function’s Overall Strategic Goals

                             reasonable timeframe?” Another asks, “Was the length of
                             research time appropriate for the issue?” As a result, there
                             may be varying opinions on whether these standards were
                             met.
                             EOCU management stated they were not planning to
                             develop specific timeliness standards. They do not consider
                             EOCU case work “measured work” that requires specific
                             timeliness standards. However, we determined the EO
                             Examinations function has specific guidelines for how long
                             certain tasks should take when processing similar types of
                             compliance work. For example, specific timeliness
                             standards have been established for correspondence
                             examinations performed by EO function personnel. In
                             addition, the TE/GE Division Federal, State, and Local
                             Governments function has developed a separate Internal
                             Revenue Manual for completing compliance checks that
                             includes several of the same timeliness standards found in
                             the EO Examinations function guidance. The timeliness
                             standards from these other functions could be used as a
                             guide to develop specific timeliness standards for the
                             EOCU. Without established standards, there is a risk that
                             EOCU case processing may not be completed as timely as
                             possible and may increase taxpayer burden.

                             Recommendation

                             3. The Director, EO, should develop specific timeliness
                                standards for applicable EOCU cases to ensure they are
                                completed timely.
                             Management’s Response: The Director, EO Examination,
                             will develop specific timeliness standards for applicable
                             EOCU cases.




                                                                                    Page 9
   Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
        Support the Exempt Organizations Function’s Overall Strategic Goals

                                                                                     Appendix I


                      Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine the adequacy of the Exempt
Organizations (EO) function’s efforts to implement the Exempt Organizations Compliance Unit
(EOCU) and whether the EO function had controls to effectively manage EOCU projects. To
accomplish our objectives, we:
I. Assessed whether EO function management had developed plans to achieve the goals
   developed for the EOCU.
       A. Interviewed EO function management to determine their goals for the EOCU.
       B. Obtained any documentation developed by EO function management used to justify
          the establishment of the EOCU and obtain additional resources.
       C. Assessed EOCU management’s strategic planning efforts to ensure projects planned
          or ongoing are properly coordinated to assist management in achieving EOCU goals
          (both short-term and long-term).
II. Determined whether the EO function had the necessary management information to monitor
    and evaluate the productivity and effectiveness of the EOCU.
       A. Determined whether key data were captured to allow management to effectively
          monitor and evaluate the effectiveness of the EOCU program.
       B. Determined whether there was a process in place to analyze project results and to use
          the results in planning future projects.
       C. Determined whether any performance measures had been developed for the EOCU.
III. Assessed the process used to identify, prioritize, and select EOCU work projects for
     compliance and educational purposes.
       A. Determined the methodology used to identify EOCU work projects.
       B. Determined whether an adequate process had been implemented to prioritize and
          select EOCU work projects.
       C. Determined whether all necessary planning documentation had been developed and
          approved for our sampled work projects. We judgmentally sampled 3 of the 13
          EOCU projects (the Fundraising Educational Mail-Out project, one of the Foundation
          Code/Subsection Code Mismatch compliance check projects, and the Zero
          Compensation Paid to Officers case-building projects) initiated during the period
          February through August 2004. We used a judgmental sample due to time constraints
          and because we did not plan to project our results.

                                                                                            Page 10
   Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
        Support the Exempt Organizations Function’s Overall Strategic Goals

IV. Assessed the process used to manage the sampled EOCU projects from Sub-objective III.C.
       A. Determined the process used to select EOCU cases for each sampled project.
       B. Determined whether an adequate process had been implemented to prioritize and
          assign EOCU cases for each sampled project.
       C. Determined whether an effective process was in place to monitor case workload to
          ensure cases were timely worked for each sampled project.
       D. Determined the process used to close EOCU cases and finalize the sampled projects.




                                                                                       Page 11
   Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
        Support the Exempt Organizations Function’s Overall Strategic Goals

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Jeffrey M. Jones, Audit Manager
Cheryl Medina, Lead Auditor
Michael Van Nevel, Senior Auditor
Michael McGovern, Auditor




                                                                                      Page 12
   Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
        Support the Exempt Organizations Function’s Overall Strategic Goals

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 13
      Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
           Support the Exempt Organizations Function’s Overall Strategic Goals

                                                                                                      Appendix IV


                                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
       •   Reliability of Information - Actual; 432 cases (see page 6).
Methodology Used to Measure the Reported Benefit:
We queried the Exempt Organizations Compliance Unit (EOCU) inventory database for cases
closed with the disposal code “Other” as of September 16, 2004, and identified 249 cases. In the
242 cases1 for which sufficient information was captured on the database, we determined many
cases had similar results that could be better tracked by Exempt Organizations (EO) function
management through additional disposal codes. In addition, EOCU employees used the “Other”
disposal code to close some cases when a more descriptive disposal code was available.
During our fieldwork, we informed EO function management of the need for additional disposal
codes to better track EOCU case results. As a result, EO function management has taken action
to create additional disposal codes and increase EOCU employees’ awareness in this area.
Specifically, EOCU personnel performed an analysis of all the cases closed using the “Other”
disposal code as of December 9, 2004, and changed the dispositions to newly added, more
descriptive codes or to existing codes that better described the case dispositions. Based upon this
analysis, EO function management corrected 432 cases that were closed using the “Other”
disposal code.




1
    In seven cases, there was insufficient information on the database with which to determine the case disposition.
                                                                                                               Page 14
Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
     Support the Exempt Organizations Function’s Overall Strategic Goals

                                                                     Appendix V


                Management’s Response to the Draft Report




                                                                          Page 15
Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
     Support the Exempt Organizations Function’s Overall Strategic Goals




                                                                          Page 16
Improvements Are Needed in the Exempt Organizations Compliance Unit to Better
     Support the Exempt Organizations Function’s Overall Strategic Goals




                                                                          Page 17
